IX.

APPENDIX

Decision being appealed

1

Order denying Rehearing en banc.

2

Order denying Rehearing/Written Opinion/Clarification

3

Mandate by Court

4

Transcript of hearing below

5

Decision below

19

Initial denial by Department

23

Request for Formal Hearing by Judge

25

Notice of Informal Hearing,

26

New Jersey Expungement Order

27

9

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED
E.H., III
Appellant,
v.

Case No. 5D19-1780

DEPARTMENT OF AGRICULTURE AND
CONSUMER SERVICES, DIVISION OF LICENSING,
Appellee.

Decision filed June 23, 2020
Administrative Appeal from the
Department of Agriculture &
Consumer Services,
E.H..III, Ocala, pro se.
Leslie Bovis Fearington, Senior Attorney,
Department of Agriculture and Consumer
Services, Division of Licensing,
Tallahassee, for Appellee.
PER CURIAM.
AFFIRMED.

COHEN, EDWARDS and GROSSHANS, JJ., concur.

App. 1

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT

E.H., III
Appellant,
v.

CASE NO. 5D19-1780

DEPARTMENT OF AGRICULTURE
AND CONSUMER SERVICES,
DIVISION OF LICENSING,
Appellee.

DATE: July 24, 2020
BY ORDER OF THE COURT:
ORDERED that Appellant's Petition for Rehearing En Banc, filed July 3, 2020, is
denied.

I hereby certify that the foregoing is
(a true copy of) the original Court order.

Fi

SANDRA B. WILLIAMS, CLERK

^tHr

Panel: En Banc Court
cc:
Leslie Bovis Fearington

E.H., III

Clerk Department of
Agriculture

App. 2

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
E.H., III,
Appellant,

v.

CASE NO. 5D19-1780

DEPARTMENT OF AGRICULTURE
AND CONSUMER SERVICES,
DIVISION OF LICENSING,
Appellee.

DATE: July 22, 2020
BY ORDER OF THE COURT:
ORDERED that Appellant's Motion for Rehearing and Written Opinion and
Clarification, filed July 3, 2020, is denied.

I hereby certify that the foregoing is
(a true copy of) the original Court order.

15

> ^3-

n

_. \»%

'A\
\t\
W-;

SANDRA B. WILLIAMS, CLERK
Panel: Judges Cohen, Edwards, and Grosshans
cc:
Leslie Bovis Fearington

E.H., III

Clerk Department of
Agriculture (WX1884626)

App. 3

T

E

from

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA

FIFTH DISTRICT
THIS CAUSE HAVING BEEN BROUGHT TO THIS COURT BY APPEAL OR BY PETITION, AND
AFTER DUE CONSIDERATION THE COURT HAVING ISSUED ITS OPINION OR DECISION;
YOU ARE HEREBY COMMANDED THAT FURTHER PROCEEDINGS AS MAY BE REQUIRED
BE HAD IN SAID CAUSE IN ACCORDANCE WITH THE RULING OF THIS COURT AND WITH THE
RULES OF PROCEDURE AND LAWS OF THE STATE OF FLORIDA.
WITNESS THE HONORABLE Kerry I. Evander, CHIEF JUDGE OF THE DISTRICT COURT OF
APPEAL OF THE STATE OF FLORIDA, FIFTH DISTRICT, AND THE SEAL OF THE SAID COURT AT
DAYTONA BEACH, FLORIDA ON THIS DAY.
DATE: August 17, 2020
FIFTH DCA CASE NO.: 5D 19-1780
CASE STYLE: E.H., III v.

DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES,
DIVISION OF LICENSING

COUNTY OF ORIGIN: Marion
TRIAL COURT CASE NO.: WX1884626
I hereby certify that the foregoing is
(a true copy of) the original Court mandate.

SANDRA B. WILLIAMS, CLERK
Mandate and Opinion to: Clerk Department of Agriculture
cc: (without attached opinion)
Leslie Bovis Fearington
E.H., III

App. 4

I.

1
FLORIDA DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES
DIVISION OF LICENSING
IN RE:
Case Number

WX]884626

ERNEST HEMSCKOT III,
Petitioner.

TRANSCRIBED FROM DIGITAL RECORDING
PROCEEDING:

Informal Review Hearing of
Denial of Licensure

BEFORE:

Hearing Officer Frank Hranicky
Tallahassee Regional Office
1276 Metropolitan Blvd., Suite 102
Tallahassee, Florida 32312

DATE:

May 14, 2019

PLACE:

Telephonic Appearances

TRANSCRIBED FROM
CD BY:

SHELLY L. OWEN, CET
Certified Transcriptionist (AAERT)

APPEARANCES:

Ernest Hemschot III
The Petitioner

CD IDENTIFIER:

REC ID: 1576899019
WX1884626

OWffl <3 flSSOCMtS" (352) 624-2258 ’ owenassocs@aol.com

App. 5

2
1

May 14, 2019

2
3

HEARING OFFICER:

All right, if you're ready, you

can swear in the Petitioner.

4

THE NOTARY:

Can you raise your right hand for me?

5

(At which time the Petitioner was administered the oath by

6

the notary, further proceedings recorded as follows:)

7

MR. HEMSCHOT:

8

HEARING OFFICER:

9
10

morning.

13

All right, thanks a lot.

My name is Frank Hranicky.'

officer assigned to this matter.

11
12

Yes, I do.

MR. HEMSCHOT:
fine.

Good morning.

Good

I'm the hearing

Can you hear me okay?
Yes, I can hear you

Thank you.
HEARING OFFICER:

All right, before we start, I'm

14

going to make you aware of two things.

15

observer, Marissa Atherly (phonetic) in the room today.

16

Any objections?

17

MR. HEMSCHOT:

18

HEARING OFFICER:

19

recorded.

Nc, I don't.
And the hearing is being

Any objections to that?

20

MR. HEMSCHOT:

21

HEARING OFFICER:

22

We have an

No, I don't.
Okay, I'm going to make a brief

■ prepared statement for the record and, after I-'ve

23

completed that statement, you'll have an opportunity to

24

ask any questions you have about the hearing process and

25

present your testimony and evidence.

*

OWfll d flttOORltS * (352) 624-2258 * owenassocs@aol.com

App. 6

3
1

So,

for the record, this is an informal hearing in

2

the matter of a denial of licensure taken by the

3

Department of Agriculture and Consumer Services Division

4

of Licensing against Ernest Hemschot.

S

Is it Hemscot (phonetic) or -shot (phonetic)?

6

MR. HEMSCHOT:

7

HEARING OFFICER:

Shot (phonetic), sir.
Hemschot, Ernest Hemschot III.

8

You are the Petitioner in Case Number WX1884626, being

9

held in Jacksonville and Tallahassee, Florida.

The date

10

is May 14, 2019, and the time now is 9:31 a.m., and

11

that's Eastern Daylight.

12

For the record, the Department of Agriculture and

13

Consumer Services Division of Licensing is not

14

represented by an attorney at this hearing, which will

IS

be conducted, pursuant to Section 120.57(2), Florida

16

Statutes.

17

I've reviewed the Department's case file and read

18

the denial letter in your case, and the purpose of the

19

hearing is to give you an opportunity to present any

20

legal or factual arguments you believe are relevant to

21

the Division's final decision in this matter.

22

Before the close of the hearing, you may present a

23

brief summary or closing statement, if you so desire.

24

After the hearing, I'll be reviewing the evidence and

25

the legal arguments presented.

A final order will be

OWflt d fiSSOCIfilES * (352) 624-2258 ' owenassocs@aol.com

App. 7

4
1

issued and mailed to you, and contain instructions for

2

appealing it, should you decide to do so.

3
4

Any questions about what I just read there, Mr.
Hemschot?

5

MR. HEMSCHOT:

6

HEARING OFFICER:

7
8
9

Nc, sir, I don't.
All right, if there are no

questions, we'll proceed.
The denial in your case is based upon failure to
qualify under Section 790.062 in Florida Statutes.

10

Information received by the Department indicates you're

11

prohibited, under federal law, from possessing a

12

firearm, pursuant to the National Instant Criminal

13

Background Check System.

14

You can appeal the determination that you're

IS

ineligible to possess a firearm under federal law, as

16

explained in the Firearm Possession Nonapproval Appeal

17

Form that was attached to this denial letter, and must

18

be filed with the Florida Department of Law Enforcement.

19

The appeal of your denial is separate, a separate

20

process.

21

Weapon or Firearm License, as explained in the Election

22

of Rights Form, as well.

23

You can appeal your denial for Concealed

When you sent in your Election of Rights Form, did

24

you ever send in the appeal form to Florida Department

*5

of Law Enforcement?
owtn <5 ASSOCIATE * (352) 624-2258 * owenassocs@aol.com

App. 8

5
1

MR. HEMSCHOT:

2

HEARING OFFICER:

3

anywhere?

Yes, I did.

I don't see it.

4

MR. HEMSCHOT:

5

HEARING OFFICER:

6

MR. HEMSCHOT:

7

have that.

8

see if

9

A copy of the appeal?

Let me see if I

I have their letter back to me, but let me

HEARING OFFICER:
MR. HEMSCHOT:

11

HEARING OFFICER:

You have a letter back from FDLE?

I do.

Yes, sir.

I haven't seen that.

Have you

submitted that yet?

13
14

Uh-uh (affirmative).

One, one second.

10

12

Do you have a copy of that

MR. HEMSCHOT:

No, I didn't.

I assumed that you

would get this in due course, but I did not submit it.

IS

HEARING OFFICER:

16

MR. HEMSCHOT:

17

HEARING OFFICER:

Do you have that with you now?

I do, sir.

Yes.

That needs to -- if you have a

18

letter from FDLE, that needs to be part of your exhibit.

19

okay?

20

MR.

21

HEARING OFFICER:

22

HEMSCHOT:

Okay, I didn't know that.

to put the recorder on hold, okay, -

23

MR. HEMSCHOT:

24

HEARING OFFICER:

25

Can -- you need to — I'm going

Okay.
-- oh pause here, and if you'll

get that young lady to scan that in for you, I'll leave
OWffl (5 (ISSCXIfiTES * (352) 624-2258 * owenassocs@aol.com

App. 9

6
1

this on pause until we can take a look at that, okay?

2 .
3

MR. HEMSCHOT:

She's gone out front.

I'll have to bring it out to her.

4
S

Okay, sure.

HEARING OFFICER:

All right, what I'm going to do

is, right now, I'm going to put this on pause, okay?

6

MR. HEMSCHOT:

Ail right, thank you.

I'll be right

7

(Pause in hearing recording is noted, further proceedings

8

recorded as follows:)

9

HEARING OFFICER:

Okay, I have the recorder back

10 .

on.

11

appeal and you got this letter back.

12

go through everything that you've sent me so far,

13

okay.

Hold on just a second.

14

MR. HEMSCHOT:

15

HEARING OFFICER:

16

Okay, so you sent in your
I'm, I'm going to

Yes.
— before we do anything, all

right?

17

MR. HEMSCHOT:

18

HEARING OFFICER:

Yes.
So, back in December, with your

19

Election of Rights Form, you sent in a written

20

statement, hoping that you could clear up the

2i

discrepancy.

22

certificate and your United States passport; is that

23

correct?

You sent in a copy of your birth

24

MR.. HEMSCHOT:

2i

HEARING OFFICER:

That is correct, sir.
Okay, that was back in December.

OWEH <5 flSSOCIfllES * (352) 624-2258 * oweriassocs@aot.com

App. 10

7
1

And then in January, on the 25th, you, you sent in an

2

amended petition to us, and, basically, looking at the

3

Second Amendment; is that correct?

4
5

MR. HEMSCHOT:

Yeah, yes, sir.

It was a five-page

document.

6

HEARING OFFICER:

Yeah, basically, looking at the

7

Second Amendment of the United States Constitution,

8

right?

9

MR. HEMSCHOT:

10

I cite that, yes, sir.

HEARING OFFICER:

And then another amended

11

petition.

12

been -- they must have put two copies in there.

It looks like the same thing.

13

MR. HEMSCHOT:

14

HEARING OFFICER:

It must have

Okay.
So, it was a five-page copy,

15

okay?

16

this morning, you sent in something that had to do with

17

an expungement.

And then — so that was in January,

18

MR. HEMSCHOT:

19

HEARING OFFICER:

20

MR. HEMSCHOT:

21

HEARING OFFICER:

And then,

Correct.
Of what case?

Of mental health records.
Okay, mental health records?

22

Okay.

23

exhibit is a letter from FDLE, right?

And then you sent in your — your final, final

24

MR. HEMSCHOT:

25

HEARING OFFICER:

Yes.
And that is dated January 31,

OWfd <5 fiSSOQflTES * (352) 624-2258 * owenassocs@aol.com

App, 11

8
1

•

2019.

2

MR. HEMSCHOT:

Yes, sir.

3

HEARING OFFICER:

And the basis of this letter

After review, based upon information received, it

4

says:

5

has been determined that you are still prohibited from

6

purchasing or possessing a firearm.

7

admit that into evidence.

And so I'm going to

8

With that, I'll take your testimony on all this.

9

MR. HEMSCHOT:

Okay, when I received the letter

id-

from the FDLE that you just referred to, they cited the

11

New Jersey court system as being the source of the

12

record in NICS that rendered me disqualified.

13

saw that I realized what the, what the problem was.

14

Originally, I didn't know why I was disqualified,

15

because I received the paperwork as you recited, saying

16

that I'm ineligible to purchase a firearm, therefore,

17

I'm ineligible to carry a firearm.

18

specifically.

19

ineligible, so I wasn't quite clear on what the problem

20

was.

21

When I

It didn't say why,

It just said, by law, you're, you're

Originally, when I called up, when I had the first

22

communication, I was told the problem had something to

23

do with my name.

24

of my passport and birth certificate, to clear up any

25

discrepancy, according to name.

That's the reason I sent them a copy

OWEI1 d ASSOCIATES * (352) 624-2258 * owenassocs@aoi.com

App. 12

9
1
2
3

That, however, was not the issue, apparently.
because I got this letter January 31st from FDLE.
Now, when I saw this letter and I saw the reference

4

to the administration of the courts of New Jersey, I

5

realized what probably happened was I was admitted for

6

bipolar disorder to an institution in New Jersey in 1996

7

and again in 2000.

8

I made an -- New Jersey developed a procedure.

9

pursuant to federal law, for curing that disability, and

10

the procedure in New Jersey is called an expungement.

11

And what happens is you petition the Court.

12

certain proofs you have to produce and, at the end of

13

the hearing, the Court will either grant an expungement,

14

or not grant the expungement.

15

a copy of the order that I sent you, back in 2010.

16

There's

Mine was granted, as per

So what 1 figured out must have happened was my

17

records from 1996 and 2000 must have already been

18

submitted for inclusion in the NICS system, and the

19

expungement order either got lost in the shuffle or, for

20

some reason, didn't make it into the NICS system.

21

So I think that's the problem here.

The bottom

22

line is that the expungement of those records renders

23

them, basically, nonexistent, at this point.

24

advantage of the procedure in New Jersey for relieving

25

the disability from carrying or purchasing a firearm.

So I took

OWffl <3 fiSSOCIflTES * (352) 624-2258 * owenassocs@aol.com

App. 13

10
1

That's how it's done in New Jersey.

2

system in New Jersey.

3

submitted my proofs and got that order.

4

And I adhered to that and

So, at this hearing, I'm hoping that I can cure the

5

problem by producing a copy of that expungement order

6

from New Jersey.

7

•!»

That's the relief

The, the statute that I'm referencing is 790.06,

8

which is the weapons and firearms chapter of the Florida

9

Statutes.

And, basically, it said the Department of

ao

Agriculture and Consumer Services shall, shall issue a

11

license, if the applicant has not been committed to a

12

mental institution; under Chapter 394.

13

has been granted relief from firearms disabilities.

14

pursuant to law, or, or pursuant to the law of the state

15

in which the commitment is deemed not to have been

16

committed in the mental institution in this paragraph.

An applicant who

17

So that, that language states that the State of

18

Florida must accept a copy of the New Jersey relief from

19

the disabilities order, which is the expungement, and

20

accept that, as if a commitment never occurred.

21

Legally, according to that expungement order, I am

22

permitted to answer any question about that Commitment

23

in the negative.

24

record of the commitment and it never occurred, which is

*25

And I am permitted to say there's no

what I've done since 2010 in the state of New Jersey,

OWfn <5 flSSOGflltS * (352) 624-2258 * owenassocs@aol.com

App. 14

11
1

whenever this issue arose.

2

So that, in a nutshell, is, is my argument here, is

3

that the State of Florida should honor that expungement

4

order and correct the record to allow me to get the

5

concealed carry permit or purchase a firearm.

6

I am separately, with the State of New Jersey,

7

pursuing the expungement issue, because I also want to

8

clear the NICS record, as well, so I don't have any

9

disability or disqualification in the future.

10

Bun, at this hearing. I'm hoping to correct the

11

record, at least as far as the Department is concerned.

12

Department of Agriculture, so that I can get that

13

concealed carry permit.

14

basically the whole thrust of my argument today.

15

HEARING OFFICER:

16

1 appreciate that.

17

FDLE,

And that, in essence, is, is

Okay, well, that's duly noted and

And you still have this letter from

18

MR. HEMSCHOT:

19

HEARING OFFICER:

Yes.
— which explains the appeal

20

process to New Jersey and to FDLE that you must do; is

21

that correct?

22

MR. HEMSCHOT:

23

HEARING OFFICER: So that means you need to notify

24

FDLE, so the status can be verified, and then, in that

25

event, FDLE will notify you and the Department of the

That's correct.

OWffl <5 nsoamts * 052) 624-2258 ’ owenassocs@aol.com

App. 15

12
1
2 .

change in your status.
So, once you've done all that, then you need to get

3

that back to us, okay?

4

MR. HEMSCHOT:

5

could appeal the letter.

6

check or pursue an appeal with the New Jersey Civil

7

Practice Division of the Administration of the Courts,

8

which I have done.

9

a state bureaucracy and moves very slowly, —

Okay.

The letter didn't say that I
It said that I may want to

I have communicated with them.

10.

HEARING OFFICER:

11

MR. HEMSCHOT:

Right.

— so I haven't gotten anything back

12

from them yet.

13

still working on it, quote, unquote.

14

works.

15

It's

When' I checked the other day, they were
So that's in the

But I didn't do anything directly with FDLE because

16

the letter said FDLE will take no further action

17

regarding the information in NICS.

>8

the application, as far as FDLE is concerned. is dead.

19

HEARING OFFICER:

So I assumed that

Well, what it does

the letter

20

went on to say, just to be clear with you, that once you

21

communicate with New Jersey and that results in the

22

modification of the record or determine that your

23

determination that you're not subject, then you need to

24

notify FDLE, so FDLE's status can be verified, and then

25

they will notify you and our Department of the change in

OWffl <5 IlSOGfllB * (352) 624-2258 * owenassocs@aol.conn

App. 16

13
1

your status.

2
3

So read that letter, the next to the last
paragraph, carefully, okay?

4

MR. HEMSCHOT:

5

HEARING OFFICER:

6

Yes, sir.
And, and it looks like that's

what needs to be done, okay?

7

MR. HEMSCHOT:

8

HEARING OFFICER:

9

further this morning?

Yes, sir.

10

MR. HEMSCHOT:

11

HEARING OFFICER:

Okay.

All righc, is there any

No, sir, nothing further.
Okay, well, I appreciate you

12

coming by and presenting your testimony and evidence,

13

and I wish you a lot of good luck with this, okay?

14
IS

MR. HEMSCHOT:

All right, thank you, sir, very

much.

16

HEARING OFFICER:

17

MR. HEMSCHOT:

18

HEARING OFFICER:

19
20

Take care.

All right, bye-bye.
And that will conclude our

hearing at 9:47.
(Recording ends.)

21

OWEfl d ASSOCIATES * (352) 624-2258 * owenassocs@aol.com

App. 17

•

14
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

TRANSCRIPTIONIST' S CERTIFICATE
1, SHELLY L. OWEN, Transcriptionist, certify that I
was authorized to and did transcribe from digital
recording the foregoing proceedings in re: ERNEST
HEMSCHOT III, before the Division of Licensing, Florida
Department of Agriculture and Consumer Services, held on
May 14, 2019, and that the transcript is a true and
correct record of the proceedings recorded to the best
of my ability.
I FURTHER CERTIFY that .1 am not a relative,
employee, attorney or counsel of any of the parties, nor
am I a relative or employee of any of the parties'
attorney or interested ir. the action.
DATED this 10th day of July, 2019, at Ocala, Marion
County, Florida.

A/

"‘‘19

20
21
22
23
24
25
26

SHELLY L. OWEN, CET (AAERT)
CERTIFIED TRANSCRIPTIONIST
OWEN S ASSOCIATES
Post Office Box 157
Ocala, Florida 34478
(352) 624-2258

OWEI1 <5 fiSSOClfllCS * (352) 624-2258 * owenassocs@aol.com

App. 18

STATE OF FLORIDA
DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES
?'«i

FILED

ERNEST HEMSCHOT III,

MAY 20 2019
Petitioner,
QcUrw “tO.

v.

j

.,y

DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES
DIVISION OF LICENSING,

Clerk
Division of Licensing
Department of Agriculture
and Consumer Services

0

Respondent.
LICENSE NO.: WX1884626
FINAL ORDER
THIS CAUSE, arising under Chapter 790, Florida Statutes, came before Frank Hranicky, a duly
designated hearing officer of the Department of Agriculture and Consumer Services, Division of Licensing
(“division”), on May 14, 2019, for consideration of a denial of licensure and final agency action in the abovestyled case. The record in this matter is in accordance with Chapter 120, Florida Statutes.
APPEARANCES
For Petitioner:

Ernest Hemschot III
8432 Southwest 109th Street
Ocala, Florida 34481
STATEMENT OF THE ISSUES

Whether the division should uphold and affirm its denial of Petitioner’s application for a Concealed
Weapon or Firearm License pursuant to Section 790.06(2)(n), Florida Statutes.
PRELIMINARY STATEMENT
Petitioner personally appeared at the informal hearing. Petitioner’s Composite Exhibits 1 and 2 and
Exhibits 3 and 4 were admitted into evidence.
FINDINGS OF FACT

1.

On or about November 9, 2018, Petitioner submitted an application for a Concealed Weapon

or Firearm License pursuant to Chapter 790, Florida Statutes.
2.

By Administrative Denial letter dated November 13, 2018, the division notified Petitioner that it

received information from the Florida Department of Law Enforcement (“FDLE”) that Petitioner is prohibited
under Federal law from possessing a firearm pursuant to the National Instant Criminal Background Check
System. Petitioner is therefore ineligible for licensure pursuant to section 790.06(2)(n), Florida Statutes. A
Firearm Ineligibility Appeal Form was provided with the denial letter.

App. 19

3.

Petitioner timely requested a formal hearing, which was denied. The matter was referred for

informal hearing and this proceeding followed.
4.

At the informal hearing Petitioner testified that he was admitted for bipolar treatment in New

Jersey in 1996 and 1999, and that an expungement was granted in 2010. Respondent claimed his records
were submitted for NICS expungement as well, but apparently didn’t make it to FDLE’s attention.
5.

Respondent testified that he hoped the expungement would cure the problem and referenced

Section 790.06, Florida Statutes.
6.

Petitioner stated that in addition to submitting expungement records, he was separately

pursuing with the State of New Jersey to clear the NICS record. Petitioner was advised of the wording of a
letter he was submitting from the Florida Department of Law Enforcement and acknowledged that after he
receives correspondence from New Jersey regarding the NICS record, he would notify FDLE of the findings.
7.

With his Election of Rights form, Petitioner submitted the following evidence that was admitted

as Composite Exhibit 1, including:
a) A written statement in which he stated that the denial letter fails to specifically state what
other provision of Florida or federal law is at issue, and that it is impossible for him to
address the specific reason for denial;
b) In his written statement, Petitioner claimed he was informed that the problem involves his
name, but that he has had it all his life, and gave the names of his father and grandfather
in hopes of clearing up any discrepancy;
c) A copy of Petitioner’s Certification of Birth;
d) A copy of Petitioner’s United States Passport;
e) A copy of Petitioner’s Social Security Card.
8.

On or about January 23, 2019, Petitioner submitted the following evidence that was admitted

as Composite Exhibit 2, including:
a) Two copies of an Amended Petition;
b) The Amended Petition included a statement of when and how the Petitioner received notice
of the agency decision, a statement of all disputed issues of Material fact, and a copy of
Section 790.06, Florida Statutes;
c) The Amended Petition reiterates that Petitioner cannot successfully defend his rights if he
does not know what other provision of state or federal law has been violated;
d) In the Amended Petition, Petitioner denies having any lawful disability under state or
federal law;
e) The Amended Petition includes a statement of specific rules or statutes the Petitioner
contends require reversal or modification of the agency’s proposed action, and a
Statement of the relief sought by Petitioner.

App. 20

9.

At the informal hearing, Petitioner submitted a copy of an Expungement of Civil Commitment

from the Superior court of New Jersey Sussex County-Law Division dated January 14, 2010, (Exhibit 3), and
correspondence to Petitioner from the Florida Department of Law Enforcement dated January 31, 2019.
(Exhibit 4).
10.

The correspondence submitted by Petitioner from the Florida Department of Law Enforcement,

is insufficient to demonstrate that this matter was resolved by FDLE in Petitioner’s favor.
11.

Petitioner is prohibited under Federal law from possessing a firearm pursuant to the National

Instant Criminal Background Check System.
CONCLUSIONS OF LAW
1.

The division has jurisdiction over this matter pursuant to Chapter 790, Florida Statutes, and

Section 120.57(2), Florida Statutes.
2.

The Administrative Denial cites Section 790.06(2)(n), Florida Statutes, as grounds for the

denial of Petitioner’s application.
3.

Section 790.06(2)(n), Florida Statutes, requires the division to deny licensure if the applicant

is prohibited from purchasing or possessing a firearm by any other provision of Florida or federal law.
4.

The division correctly applied Section 790.06(2)(n), Florida Statues, as Petitioner is prohibited

under Federal law from possessing a firearm pursuant to the National Instant Criminal Background Check
System.
ORDER
WHEREFORE, based on the foregoing Findings of Fact and Conclusions of Law, and a complete
review of the record, it is ORDERED and ADJUDGED that the DENIAL of Petitioner’s application for a
Concealed Weapon or Firearm License, WX1884626, is UPHELD and AFFIRMED.
DONE AND ENTERED this 20th day of May, 2019, in Tallahassee, Florida.

Paul Pagano, CFE, CPM
Assistant Director
Department of Agriculture and Consumer Services
Division of Licensing
NOTICE OF RIGHTS
This Order constitutes final agency action. Any party who is adversely affected by the Order may seek
judicial review under Section 120.68, Florida Statutes. Such proceedings are commenced by filing a Notice
of Appeal, pursuant to Rule 9.190, Florida Rules of Appellate Procedure, with the Deputy Clerk of the
Department of Agriculture and Consumer Services, Division of Licensing, P.O. Box 5708, Tallahassee, Florida
32314-5708; and by filing a copy of the Notice of Appeal, accompanied by the applicable filing fees, with the

App. 21

First District Court of Appeal, or with the District Court of Appeal in the appellate district where the party
resides. The Notice of Appeal must be filed within 30 days of the day this Order is filed with the Deputy Clerk
of the Division.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of the foregoing Final Order was sent by U.S. Mail this 20th day of May,
2019, to Ernest Hemschot III; 8432 Southwest 109th Street, Ocala, Florida 34481.

Tammy Barnes
P. O. Box 5708
Tallahassee, Florida 32314-5708
(850) 245-5491
CWFOdeny

App. 22

Division of Licensing

Post Office Box 5708
Tallahassee, Florida 32314-5708

Florida Department

of

Agriculture and Consumer Services

Commissioner Adam H. Putnam

November 13, 2018
Ernest Hemschot III
8432 SW 109th St
Ocala, FL 34481

Ref#: WX1884626

RE: Administrative Denial of License WX1884626
Dear Mr. Hemschotiii:
Your application for a Concealed Weapon or Firearm License has been denied for the reasons set
forth on the following page.
You have the right to a hearing before this denial becomes final. In order to be granted a hearing
you must complete the enclosed Election of Rights form and file it with the Division of Licensing
within 26 days (21 days plus 5 days for mailing) of the date of this letter. Failure to do so will be
deemed a waiver of your right to a hearing and this letter will become final agency action 26 days
from this date. If this letter becomes final agency action as described above, you may appeal by
filing a Notice of Appeal pursuant to Rule 9.110, Florida Rules of Appellate Procedure, within 30
days of this date of final agency action.
If you have any questions regarding this letter, please contact a representative in our Public Inquiry
Section at (850)245-5691.
Division of Licensing
Public Inquiry Section
TELEPHONE: (850)245-5691
FAX: (850)245-5502
/bm
Enclosure

App^fp
1-800-HELPFLA

Fresh
Florida.

www.FreshFromFlorida.com

Ernest Hemschot III
WX1884626

Page Two
EXPLANATION

Failure to qualify under section 790.06(2)(n), Florida Statutes. Information received by the
Department indicates that you are prohibited under federal law from possessing a firearm
pursuant to the National Instant Criminal Background check system. You can appeal the
determination that you are ineligible to possess a firearm under federal law as explained in the
attached Firearm Possession Non-Approval Appeal Form that must be filed with the Florida
Department of Law Enforcement.
The appeal of your denial for a Concealed Weapon or Firearm License is a separate appeal
process. You can appeal your denial for a Concealed Weapon or Firearm License as explained
in attached Election of Rights Form that must be filed with the Florida Department of Agriculture
and Consumer Services’ Division of Licensing.

App. 24

Florida Department of Agriculture and Consumer Services
Division of Licensing
ELECTION OF RIGHTS
LICENSE DENIAL - WX1884626

ADAM H. PUTNAM
COMMISSIONER

This form must be filed at the Division of Licensing office in Tallahassee, Florida, within twenty-six (26) days (21 days
Jl'|fdayT?or roa'“a) of the Notice of Denial Failure to do so shall be deemed a waiver of your right to an
administrative hearing.
Select one of the following options and sign below:
Rave retSfunderstand the enclosed Letter of Denial. By signing the agreement i choose not to litigate the issues or facts
alleged, hereby waive my right to a hearing under Sections 120.569 and 120.57, Florida Statutes, and will abide by the
conditions imposed.
Fdo not dlspute^he^acts^upon which the agency action is based. I wish to make an explanation of those facts bysPea^9 on
mv behalf at an informal hearing. The informal hearing will be conducted before a hearing officer of the Department of
Agriculture antTcon^-ner Services in accordance with Sections 120.569 and 120.57(2), Florida Statutes, and applicable
portions of Chapter 28-106, Florida Administrative Code.
fdo not disputelhefects^pon which the agency action is based. I wish to make an explanation ofThose facts®

SSS-SSSsS-""
Mispute^hTfacts^pon9which the agency action is based. I have attached to this form a petition or written sta^eht °f
disputed issues of material fact and hereby request a formal hearing to be conducted pursuant to
120.569 arto
120.57(1), Florida Statutes, and applicable portions of Chapter 28-106, Florida Administrative Code. I realize that failure to state
the disputed issues of material fact may result in the denial of my request for a formal hearing. The formal heanng will be he d
before an Administrative Law Judge of the Division of Administrative Hearings where I may present evidence and argument on
the issues.
read and understand the Election of Rights form and understand that I have the right to be represented by counsel or
I have
qualified representative at either an informal or formal hearing.
AAg^iation, mirsuant to Section^0.573, Florida Statutes, is not available as an alternative remedy.

Applicant’s Signature
Type or print your name .

IM™S-r

Attorney’s Signature if represented
Type or print attorney’s name

Applicant’s mailing address

Attorney’s mailing address

Applicant's'city, state and zip

ncdiA n 3 wt
cn?.-°i<rt-n3So

Attorney’s city, state and zip

Applicant’s telephone number

Attorney’s telephone number

Upon completion of this form, return it to:
Florida Department of Agriculture and Consumer Services
Division of Licensing
Post Office Box 5708
Tallahassee, Florida 32314-5708
Note- In accordance with the Americans with Disabilities Act, persons needing a special accommodation to participate in a
Tallahassee, Florida 32399. Hearing and voice impaired persona may call the Flonda Relay Service at (800) 955-8771 (TDD) to
reach (850) 245-5691.
PP<
.
Q710 0004 OYT? 7531
7007
FDACS-16015 Rev. 08/16

STATE OF FLORIDA
DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES
ERNEST HEMSCHOT III,
Petitioner,
V.

LICENSE NO.:
WX1884626
Jacksonville Regional Office

DEPARTMENT OF AGRICULTURE AND CONSUMER SERVICES
DIVISION OF LICENSING,
Respondent.

NOTICE OF INFORMAL HEARING
A hearing will be scheduled and held in this case before an agency hearing officer of the Division of
Licensing.
Date:

May 14, 2019

Time:

9:30AM

Location:

Jacksonville Regional Office
Concealed Weapon or Firearm License
7825 Baymeadows Way, Suite 106-A
Jacksonville, Florida 32256
Phone: (904) 828-3100, Option 1

Issue:

As set forth in the Denial Letter

Authority:

Section 120.57(2), Florida Statutes and Rule 28-106, Florida Administrative Code

The parties have the right to testify, call witnesses, and to be represented by counsel in accordance
with Rule 28-106.106, Florida Administrative Code. The parties must arrange to have witnesses present and
shall bring any documents they wish to present.
Should unforeseen circumstances prevent your attendance at the scheduled date and time, you are
required to notify the undersigned, in writing, at least three days in advance of the hearing. Continuances will
be granted only for good cause shown based upon unforeseen occurrences.
You have the option of submitting a written statement instead of appearing at the hearing. The
statement, along with any supporting documentation, must be received by the undersigned prior to the time of
the hearing.
Frank Hranicky
Hearing Officer
Department of Agriculture and Consumer Services
Office of the Clerk and Informal Hearings
Jacksonville Regional Office
Copies furnished this 11th day of February 2019 to:
Ernest Hemschot lii
8432 Southwest 109th Street
Ocala, Florida 34481
c: Legal Section/Tallahassee

App. 26

ERNEST HEMSCHOT III, ESQ.
93 SPRING STREET, SUITE 504
NEWTON, NEW JERSEY 07860
FAX/PHONE: 973-300-1192
ERNESTHEMSCHOT@JUSTICE.COM

FILED
JAN 1 4 2010
J. m GOVERN HI, J.S.C
•SURGE'S CHAMBERS
SUSSEX COUNTY COURTHOUSE

IN RE EXPUNGEMENT OF

SUPERIOR COURT OF NEW JERSEY
SUSSEX COUNTY-LAW DIVISION

CIVIL COMMITMENT

DOCKET NO. SSX-L-978i09
ORDER PURSUANT TO NJSA 30:4-80.9

THIS MATTER has been opened to the Court by petitioner Ernest Hemschot III, and
whereas the petitioner has been subjected to two civil commitment orders entered by the Superior
Court of New Jersey in 1996 and again in 2000, and whereas NJSA 30:4-80.9 permits the Superior
Court to order the expungement of such civil commitment records if no reason appears to the
contrary, and whereas the Court has considered the Verified Petition and the submission by Dr.
Robert C. Lieb, petitioner’s physician, and whereas the Court is satisfied that the petitioner meets
/ Vj^cfay of January,
2010:
the statutory requirements, it is therefore on this
ORDERED that the clerk of the Superior Court and the Sussex County Adjuster shall
fully and completely expunge petitioner Ernest Hemschot’s civil commitment records from 1996
and 2000 in accordance with the provisions of NJSA 30:4-80.9; it is further

J>.) ORDERED pursuant to NJSA 30:4-80.11 that said commitments shall be deemed not to
y

have occurred for all legal purposes; it is further

3.

ORDERED that this Order, Petition and entire file be SEALED by the Clerk of the

Superior Court until further Order of this Court; it is further

1
j

ORDERED that a copy of this Order shall be served on ^aff interested parties within seven

days of the entry hereof.

OF THE’S^JPERIOR COURT

4&.C,

